No. 19-1263

In the

Supreme Court of the United States
Mark Thompson,
Petitioner,
v.
Board of Education of the City of Chicago, et al,
Respondents.

Waiver
1. I do not intend to file a Response to the Petition for a Writ of Certiorari
unless one is requested by the Court.
2. There are multiple Respondents, and I do not represent all Respondents.
Please enter my Appearance as Counsel of Record for the following Respondents:
Board of Education of the City of Chicago,
Harold Ardell,
Linda Brown,
Forrest Claypool,
Reginald Evans,
Thomas Krieger,
James Sullivan, and
Alicia Winckler.
3. I am a member of the Bar of the Supreme Court of the United States.
/s/ Thomas A. Doyle
Thomas A. Doyle (Counsel of Record)
Board of Education of the City of Chicago
Law Department
1 N. Dearborn Street, 9th Floor
Chicago, IL 60602
(773) 553-1720
tadoyle2@cps.edu

June 1, 2020

A copy of this form has been sent to Petitioner, who is pro se, and to the following
Counsel for Respondents:
Mark Thompson (Petitioner, pro se)
P.O. Box 8878
Champaign IL 61821
(217) 480-6256
drmarkthompson@aol.com
Joseph Bosco
LAROSE & BOSCO LTD.
200 N. LaSalle Street, Suite 2810
Chicago, IL 60601
(312) 642-4414
jbosco@laroseboscolaw.com
Counsel for Respondent
Dan Nielsen

Joseph Comer
BARKER CASTRO KUBAN & STEINBACK LLC
303 W Madison Street, Suite 700
Chicago, IL 60603
(312) 392-2548
jcomer@bclawllc.com
Counsel for Respondents Dr. Claudia Welke
and Northshore University Health System

John Skawski
Brian Ginley
SKAWSKI LAW OFFICES LLC
1400 16th Street, Suite 260
Oak Brook IL 60523
(630) 472-9500
jjs@skawlaw.com
btg@skawlaw.com
Counsel for Respondent
Jane Doe’s Mother

Christopher Garcia
GARCIA LAW GROUP
20 Danada Square West, Suite 221
Wheaton, IL 60817
(312) 536-7438
cag@employerlaw.us
Counsel for Respondent Jane Doe

